APPENDIX A

Case: 19-11231

Document: 00515509738

Page: 1

Date Filed: 07/30/2020

United States Court of Appeals
for the Fifth Circuit
United States Court of Appeals
Fifth Circuit

No. 19-11231
Summary Calendar

FILED
July 30, 2020
Lyle W. Cayce
Clerk

United States of America,

Plaintiff — Appellee,
versus
Alford Donta Tarpley,
Defendant — Appellant.

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:19-CR-146-1
Before Jolly, Elrod, and Graves, Circuit Judges.
Per Curiam:*
Alford Donta Tarpley challenges the 100-month sentence imposed by
the district court following his guilty-plea conviction of felon in possession of
a firearm. He contends that the sentence, which constitutes an upward

*

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should
not be published and is not precedent except under the limited circumstances set forth in
5TH CIR. R. 47.5.4.

Case: 19-11231

Document: 00515509738

Page: 2

Date Filed: 07/30/2020

No. 19-11231

variance from the guidelines range of 46-57 months of imprisonment, is
procedurally and substantively unreasonable.
We review criminal sentences, including those based on variances, for
reasonableness. Gall v. United States, 552 U.S. 38, 49-51 (2007). First, we
determine whether the district court committed any “significant procedural
error, such as failing to calculate (or improperly calculating) the Guidelines
range . . . [or] selecting a sentence based on clearly erroneous facts.” Id. at
51. If the sentence is procedurally sound, we will “consider the substantive
reasonableness of the sentence imposed under an abuse-of-discretion
standard . . . tak[ing] into account the totality of the circumstances.” Id.
Although Tarpley objected to the procedural reasonableness of the
district court’s imposition of an above-guidelines sentence based upon his
juvenile history, at no point did he contend that the descriptions of his
juvenile criminal conduct contained in the presentence report were
unreliable or that the district had procedurally erred by sentencing him based
on clearly erroneous facts. See Gall, 552 U.S. at 51. We therefore review for
plain error his contention that the district court improperly based his
sentence, in part, upon incorrect factual findings regarding his juvenile
record. See Puckett v. United States, 556 U.S. 129, 135 (2009). As Tarpley
does not even attempt to show plain error, his challenge fails. See id.
We also review for plain error Tarpley’s unpreserved argument that
the district court miscalculated the guidelines range by holding that his
conviction for robbery causing bodily injury under Texas Penal Code
§ 29.02(a)(1) constituted a crime of violence for purposes of U.S.S.G.
§§ 2K2.1(a)(4)(A) and 4B1.2(a)(1). See id. Tarpley correctly concedes that
his argument is foreclosed by United States v. Burris, 920 F.3d 942, 948-52
(5th Cir. 2019), petition for cert. filed (U.S. Oct. 3, 2019) (No. 19-6186), in

2

Case: 19-11231

Document: 00515509738

Page: 3

Date Filed: 07/30/2020

No. 19-11231

which we held that a conviction under § 29.02(a)(1) categorically requires
the use of physical force.
Finally, Tarpley contends that his sentence is substantively
unreasonable because the district court gave significant weight to an
improper factor by citing certain juvenile conduct, which he characterizes as
minor, as part of the basis for his sentence. See United States v. Diehl, 775
F.3d 714, 724 (5th Cir. 2015). However, a district court may consider a
defendant’s criminal history, including his juvenile conduct, in imposing a
non-Guidelines sentence. United States v. Smith, 440 F.3d 704, 709 (5th Cir.
2006).
AFFIRMED.

3

APPENDIX B

Case 4:19-cr-00146-A Document 33 Filed 11/08/19

. .
I T URI
NORTHERN
DISTRICT
Page
1 of 5 PageID
74OF TEXAS

FILED

Wntteb ~tates ~tstrttt <!Co

NOV -8

Northern District of Texas
Fort Worth Division

§

UNITED STATES OF AMERICA
v.

§

ALFORD DONTA TARPLEY

§

2~

CLERK, U.S. DISTRICT COURT
,__ BY-~----~~~.. _____ _
Dq1lit\

____________

·--···~.,.,

Case Number: 4:19-CR-146-A(Ol)

JUDGMENT IN A CRIMINAL CASE
The government was represented by Assistant United States Attorney Laura G. Montes.
The defendant, ALFORD DONTA TARPLEY, was represented by Federal Public Defender
through Assistant Federal Public Defender Jaidee Serrano.
The defendant pleaded guilty on May 31, 2019 to the one count Information filed on May
14, 2019. Accordingly, the court ORDERS that the defendant be, and is hereby, adjudged guilty
of such count involving the following offense:
Title & Section I Nature of Offense
18 U.S.C. § 922(g)(l) Felon in Possession ofa Firearm

Date Offense Concluded
12/10/2018

Count
I

As pronounced and imposed on November 8, 2019, the defendant is sentenced as provided
in this judgment.
The court ORDERS that the defendant immediately pay to the United States, through the
Clerk of this Court, a special assessment of $100.00.
The court further ORDERS that the defendant shall notify the United States Attorney for
this district within 30 days of any change of name, residence address, or mailing address, as set
forth below, until all fines, restitution, costs, and special assessments imposed by this Judgment
are fully paid. If ordered to pay restitution, the defendant shall notify the court, through the clerk
of this court, and the Attorney General, through the United States Attorney for this district, of
any material change in the defendant's economic circumstances.
IMPRISONMENT
The court further ORDERS that the defendant be, and is hereby, committed to the
custody of the United States Bureau of Prisons to be imprisoned for a term of 100 months. This
sentence shall run concurrently with any sentence w:hich may be imposed in Case No. l 573900D
in Criminal District Court No. 3 of Tarrant County, Texas.
The defendant is remanded to the custody of the United States Marshal.

Case 4:19-cr-00146-A Document 33 Filed 11/08/19

Page 2 of 5 PageID 75

SUPERVISED RELEASE
The court further ORDERS that, upon release from imprisonment, the defendant shall be
on supervised release for a term of three (3) years and that while on supervised release, the
defendant shall comply with the standard conditions ordered by this Court and shall comply with
the following additional conditions:
1.

The defendant shall not commit another federal, state, or local crime.

2.

The defendant shall not unlawfully possess a controlled substance.

3.

The defendant shall cooperate in the collection of DNA as directed by the U.S. Probation
Officer, as authorized by the Justice for All Act of 2004.

4.

The defendant shall refrain from any unlawful use of a controlled substance, submitting
to one drug test within 15 days of release from imprisonment and at least two periodic
drug tests thereafter, as directed by the probation officer pursuant to the mandatory drug
testing provision of the 1994 crime bill.

5.

The defendant shall participate in mental health treatment services as directed by the
probation officer until successfully discharged, which services may include prescribed
medications by a licensed physician, with the defendant contributing to the costs of services
rendered at a rate of at least $25 per month.

6.

The defendant shall participate in a program approved by the probation officer for
treatment of narcotic or drug or alcohol dependency that will include testing for the
detection of substance use, abstaining from the use of alcohol and all other intoxicants
during and after completion of treatment, contributing to the costs of services rendered at
the rate of at least $25 per month.

7.

The defendant shall also comply with the Standard Conditions of Supervision as
hereinafter set forth.

Standard Conditions of Supervision
1.

The defendant shall report in person to the probation office in the district to which the
defendant is released within seventy-two (72) hours of release from the custody of the
Bureau of Prisons.

2.

The defendant shall not possess a firearm, destructive device, or other dangerous weapon.

3.

The defendant shall provide to the U.S. Probation Officer any requested financial
information.

4.

The defendant shall not leave the judicial district where the defendant is being supervised
without the permission of the Court or U.S. Probation Officer.

2

Case 4:19-cr-00146-A Document 33 Filed 11/08/19

Page 3 of 5 PageID 76

5.

The defendant shall report to the U.S. Probation Officer as directed by the court or U.S.
Probation Officer and shall submit a truthful and complete written report within the first
five ( 5) days of each month.

6.

The defendant shall answer truthfully all inquiries by the U.S. Probation Officer and
follow the instructions of the U.S. Probation Officer.

7.

The defendant shall support his dependents and meet other family responsibilities.

8.

The defendant shall work regularly at a lawful occupation unless excused by the U.S.
Probation Officer for schooling, training, or other acceptable reasons.

9.

The defendant shall notify the probation officer at least ten ( 10) days prior to any change
in residence or employment.

10.

The defendant shall refrain from excessive use of alcohol and shall not purchase, possess,
use, distribute, or administer any narcotic or other controlled substance, or any
paraphernalia related to such substances, except as prescribed by a physician.

11.

The defendant shall not frequent places where controlled substances are illegally sold,
used, distributed, or administered.

12.

The defendant shall not associate with any persons engaged in criminal activity, and shall
not associate with any person convicted of a felony unless granted permission to do so by
the U.S. Probation Officer.

13.

The defendant shall permit a probation officer to visit him at any time at home or
elsewhere and shall permit confiscation of any contraband observed in plain view by the
U.S. Probation Officer.

14.

The defendant shall notify the probation officer within seventy-two (72) hours of being
arrested or questioned by a law enforcement officer.

15.

The defendant shall not enter into any agreement to act as an informer or a special agent
of a law enforcement agency without the permission of the court.

16.

As directed by the probation officer, the defendant shall notify third parties of risks that
may be occasioned by the defendant's criminal record or personal history or
characteristics, and shall permit the probation officer to make such notifications and to
confirm the defendant's compliance with such notification requirement.

The court hereby directs the probation officer to provide defendant with a written
statement that sets forth all the conditions to which the term of supervised release is subject, as
contemplated and required by 18 U.S.C. § 3583(f).

3

Case 4:19-cr-00146-A Document 33 Filed 11/08/19

Page 4 of 5 PageID 77

FINE
The court did not order a fine because the defendant does not have the financial resource
or future earning capacity to pay a fine.
FORFEITURE
Pursuant to 18 U.S.C. § 924(d) and 28 U.S.C. § 2461(c), it is hereby ordered that
defendant's interest in the following property is condemned and forfeited to the United States: a
Smith & Wesson, Model SW 40VE, .40 caliber semi-auto pistol, bearing Serial No. DTE6723,
including any ammunition, magazines, and/or accessories recovered with the firearm.

STATEMENT OF REASONS
The "Statement of Reasons" and personal information about the defendant are set forth
on the attachment to this judgment.
Signed this the 8th day ofNovember, 2019.

4

Case 4:19-cr-00146-A Document 33 Filed 11/08/19

Page 5 of 5 PageID 78

RETURN
I have executed the imprisonment part of this Judgment as follows:

Defendant delivered on
, 2019 to
--------------at _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ , with a certified copy of this Judgment.
------~

United States Marshal for the
Northern District of Texas
By _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ __
Deputy United States Marshal

5

